APPENDIX-A. CONSTITUTIONAL AND
STATUTORY PROVISIONS
Constitutional Provisions
US Const., amend. I,
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the government for a
redress of grievances.
US Const., amend. XIV, §1
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
US Const., art. Ill, §2, cl.l
The judicial power shall extend to all cases, in law
and equity, arising under this Constitution, the laws
of the United States, and treaties made, or which
shall be made, under their authority;--to all cases
affecting ambassadors, other public ministers and
consuls;--to all cases of admiralty and maritime
jurisdiction;--to controversies to which the United
States shall be a party;-to controversies between two
or more states;--between a state and citizens of
another state;-between citizens of different states;between citizens of the same state claiming lands
under grants of different states, and between a state,
or the citizens thereof, and foreign states, citizens or
subjects.
la

Statutes
18 USC §242
Whoever, under color of any law, statute, ordinance,
regulation, or custom, willfully subjects any person in
any State, Territory, Commonwealth, Possession, or
District to the deprivation of any rights, privileges, or
immunities secured or protected by the Constitution
or laws of the United States, or to different
punishments, pains, or penalties, on account of such
person being an alien, or by reason of his color, or
race, than are prescribed for the punishment of
citizens, shall be fined under this title or imprisoned
not more than one year, or both; and if bodily injury
results from the acts committed in violation of this
section or if such acts include the use, attempted use,
or threatened use of a dangerous weapon, explosives,
or fire, shall be fined under this title or imprisoned
not more than ten years, or both; and if death results
from the acts committed in violation of this section or
if such acts include kidnapping or an attempt to
kidnap, aggravated sexual abuse, or an attempt to
commit aggravated sexual abuse, or an attempt to kill,
shall be fined under this title, or imprisoned for any
term of years or for life, or both, or may be sentenced
to death.
28 USC § 1332(a)
(a)The district courts shall have original jurisdiction
of all civil actions where the matter in controversy
exceeds the sum or value of $75,000, exclusive of
interest and costs, and is between—
(1)citizens of different States;
(2)citizens of a State and citizens or subjects of a
foreign state, except that the district courts shall
not have original jurisdiction under this
subsection of an action between citizens of a State
and citizens or subjects of a foreign state who are
lawfully admitted for permanent residence in the

2a

United States and are domiciled in the same
State;
(3)citizens of different States and in which citizens
or subjects of a foreign state are additional parties;
and
(4)a foreign state, defined in section 1603(a) of this
title, as plaintiff and citizens of a State or of
different States.
28 USC § 2201(a)
(a)In a case of actual controversy within its
jurisdiction, except with respect to Federal taxes
other than actions brought under section 7428 of the
Internal Revenue Code of 1986, a proceeding under
section 505 or 1146 of title 11, or in any civil action
involving an antidumping or countervailing duty
proceeding regarding a class or kind of merchandise
of a free trade area country (as defined in section
516A(f)(9) of the Tariff Act of 1930), as determined by
the administering authority, any court of the United
States, upon the filing of an appropriate pleading,
may declare the rights and other legal relations of
any interested party seeking such declaration,
whether or not further relief is or could be sought.
Any such declaration shall have the force and effect of
a final judgment or decree and shall be reviewable as
such.
28 USC § 453
Each justice or judge of the United States shall take
the following oath or affirmation before performing
., do solemnly swear
the duties of his office: “I,
(or affirm) that I will administer justice without
respect to persons, and do equal right to the poor and
to the rich, and that I will faithfully and impartially
discharge and perform all the duties incumbent upon
me as
under the Constitution and laws of the
United States. So help me God.”

3a

28 USC §1257(a)
(a)Final judgments or decrees rendered by the highest
court of a State in which a decision could be had, may
be reviewed by the Supreme Court by writ of
certiorari where the validity of a treaty or statute of
the United States is drawn in question or where the
validity of a statute of any State is drawn in question
on the ground of its being repugnant to the
Constitution, treaties, or laws of the United States, or
where any title, right, privilege, or immunity is
specially set up or claimed under the Constitution or
the treaties or statutes of, or any commission held or
authority exercised under, the United States.
42 USC § 14503(a)
(a)Liability protection for volunteers
Except as provided in subsections (b), (c), and (e), no
volunteer of a nonprofit organization or governmental
entity shall be liable for harm caused by an act or
omission of the volunteer on behalf of the
organization or entity if—
(1)the volunteer was acting within the scope of the
volunteer’s
responsibilities
in the
nonprofit
organization or governmental entity at the time of the
act or omission;
(2)if appropriate or required, the volunteer was
properly licensed, certified, or authorized by the
appropriate authorities for the activities or practice in
the State in which the harm occurred, where the
activities were or practice was undertaken within the
scope of the volunteer’s responsibilities in the
nonprofit organization or governmental entity;
(3)the harm was not caused by willful or criminal
misconduct, gross negligence, reckless misconduct, or
a conscious, flagrant indifference to the rights or
safety of the individual harmed by the volunteer; and

4a

(4)the harm was not caused by the volunteer
operating a motor vehicle, vessel, aircraft, or other
vehicle for which the State requires the operator or
the owner of the vehicle, craft, or vessel to—
(A)possess an operator’s license; or
(B)maintain insurance.
Cal. Corp. Cod. §9241
(a) A director shall perform the duties of a director,
including duties as a member of any committee of the
board upon which the director may serve, in good
faith, in a manner such director believes to be in the
best interests of the corporation and with such care,
including reasonable inquiry, as is appropriate under
the circumstances.
(b) In performing the duties of a director, a director
shall be entitled to rely on information, opinions,
reports, or statements, including financial statements
and other financial data, in each case prepared or
presented by:
(1) One or more officers or employees of the
corporation whom the director believes to be reliable
and competent in the matters presented;
(2) Counsel, independent accountants, or other
persons as to matters which the director believes to
be within that person's professional or expert
competence;
(3) A committee upon which the director does not
serve that is composed exclusively of any or any
combination of directors, persons described in
paragraph (1), or persons described in paragraph (2),
as to matters within the committee's designated
authority, which committee the director believes to
merit confidence; or
\

5a

(4) Religious authorities and ministers, priests,
rabbis, or other persons whose position or duties in
the religious organization the director believes justify
reliance and confidence and whom the director
believes to be reliable and competent in the matters
presented, so long as, in any case, the director acts in
good faith, after reasonable inquiry when the need
therefor is indicated by the circumstances, and
without knowledge that would cause that reliance to
be unwarranted.
(c) The provisions of this section, and not Section
9243 , shall govern any action or omission of a
director in regard to the compensation of directors, as
directors or officers, or any loan of money or property
to or guaranty of the obligation of any director or
officer. No obligation, otherwise valid, shall be
voidable merely because directors who benefited by a
board resolution to pay such compensation or to make
such loan or guaranty participated in making such
board resolution.
(d) Except as provided in Section 9243 , a person who
performs the duties of a director in accordance with
subdivisions (a) and (b) shall have no liability based
upon any alleged failure to discharge his or her
obligations as a director, including, without limiting
the generality of the foregoing, any actions or
omissions which exceed or defeat any purpose to
which the corporation, or assets held by it, may be
dedicated.

6a

APPENDIX-B. SCOTUS Denials of Emergency Relief
dated 04/09/2021 & 05/17/2021
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
April 9, 2021
Mr. Sergei Vinkov
40795 Nicole Court
Hemet, CA 92544
RE: Sergei Vinkov
v. Brotherhood Mutual Insurance Company, et al.
Application No. 20A156
Dear Mr. Vinkov:
The application for a stay in the above-entitled case
has been presented to Justice Kagan, who on April 9,
2021, denied the application.
Sincerely,
Scott S. Harris, Clerk
By:
s/
Mara Silver
Advising Attorney /
Emergency
Applications Clerk

7a

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
May 17, 2021
Mr. Sergei Vinkov
40795 Nicole Court
Hemet, CA 92544
RE: Sergei Vinkov
v. . United States District Court for the Central
District of California
Application No. 20A156
Dear Mr. Vinkov:
The Court today entered the following order in the
above-entitled case:
The application for stay addressed to Justice Barrett
and referred to the Court is denied.
Sincerely,
s/
Scott S. Harris, Clerk

8a

APPENDIX-C. SCOTUS Denials of Emergency Relief
dated 12/10/2020 & 01/11/2021
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
December 10, 2020
Mr. Sergei Vinkov
40795 Nicole Court
Hemet, CA 92544
RE: Sergei Vinkov
v. United States District Court for the Central
District of California
Application No. 20A97
Dear Mr. Vinkov:
The application for a stay in the above-entitled case
has been presented to Justice Kagan, who on
December 10, 2020 denied the application.
Sincerely,
Scott S. Harris, Clerk
By:
s/
Mara Silver
Advising Attorney /
Emergency
Applications Clerk

9a

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
Scott S. Harris
Clerk of the Court
(202) 479-3011
January 11, 2021
Mr. Sergei Vinkov
40795 Nicole Court
Hemet, CA 92544
RE: Sergei Vinkov
v. United States District Court for the Central
District of California
Application No. 20A97
Dear Mr. Vinkov:
The Court today entered the following order in the
above-entitled case:
The application for stay addressed to Justice Thomas
and referred to the Court is denied.
Sincerely,
s/

Scott S. Harris, Clerk

10a

APPENDIX-D.
9thCircuit Order denying petition
for writ and emergency motion for stay of in case 2170559 dated 03/11/2021.
Case: 21-70559, 03/11/2021, ID: 12032733, DktEntry:
3, Page 1 of 1
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT
FILED
MAR 11 2021
MOLLY C. DWYER,
CLERK OF APPEALS
In re: SERGEI VINKOV.

No.

21-70559

Petitioner,

D.C. No.
5:19-cv-01821-CJC-SP
Central District of
California, Riverside

v.

ORDER

SERGEI VINKOV,

UNITED STATES
DISTRICT COURT FOR
THE CENTRAL
DISTRICT OF
CALIFORNIA,
RIVERSIDE,
Respondent,
BROTHERHOOD
MUTUAL INSURANCE
COMPANY, an Indiana
Corporation,
Real Party in Interest.

11a

Before: M. SMITH, BADE, and BUMATAY, Circuit
Judges.
Petitioner has not demonstrated that this case
warrants the intervention of this court by means of
the extraordinary remedy of mandamus. See
Bauman v.
U.S. Dist. Court, 557 F.2d 650 (9th Cir. 1977).
Accordingly, the petition is denied.
Petitioner’s motion for a stay (Docket Entry No. 2) is
denied as moot. No further filings will be accepted in
this closed case.
DENIED.
Page 1

12a

District Court's Minute Order of
APPENDIX-E.
denying motion to dismiss in case 5:19-cv-01821-SBSP dated 02/23/2021.
Case 5:19-cv-01821-SB-SP
Document 199
Filed 02/23/21
Page 1 of 3 Page ID #:4120

UNITED STATES DISTRICT COURT CENTRAL
DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Case No.:
5:19-cv-01821-SB-SP
2/23/2021

Date:

Title: Brotherhood Mutual Insurance Company v.
Sergei Vinkov
Present: The Honorable STANLEY BLUMENFELD,
JR., U.S. District Judge
Victor Cruz NIA
Deputy Clerk
Court Reporter
Attorney(s) Present for Plaintiff(s):
Attorney(s)
Present for Defendant(s): None Appearing
None Appearing
Proceedings:
[In Chambers] ORDER DENYING
MOTION TO DISMISS (DKT. NO. 180)
Before the Court is Defendant Sergei Vinkov's motion
to dismiss Plaintiff Brotherhood Mutual Insurance
Company's complaint. Dkt. No. 168 (MTD). The
motion was fully briefed. Dkt. Nos. 180 (Opp.), 184
(Reply).
Defendant has already moved to dismiss the
complaint and moved for judgment on the pleadings
on Plaintiffs claims for declaratory relief. Judge

13a

Camey twice determined that Plaintiff "plausibly
claims that there is no potential for coverage and
therefore no duty to defend or to indemnify." Dkt. No.
17 at 8; see Dkt. No. 75. But since the instant motion
appears to challenge the Court's subject matter
jurisdiction, the Court will address briefly the new
issues raised by this motion. Kontrick v. Ryan, 540
U.S. 443, 444 (2004) ("A litigant generally may raise a
court's lack of subject-matter jurisdiction at any time
in the same civil action.").

CV-90 (12/02)
CIVIL MINUTESInitials of Deputy Clerk VPC

GENERAL

Page 1
Case 5:19-cv-01821-SB-SP
Document
199
Filed 02/23/21
Page 2 of 3 Page ID #:4121
Defendant's major argument in this motion (and in
many of the discovery disputes up until now) is that
"the District Court does not have power to hear
Plaintiffs claims under [the] Establishment Clause of
both Federal and California Constitutions." MID 19.
Specifically, Defendant claims the "complaint is not
justiciable" because Plaintiff "seeks [a] declaration
which impermissibly attacks [Defendant's] religious
beliefs and his manner of discharging the duties
under the religious texts." Id. According to Defendant,
Plaintiffs claims against him impinge on his "state
and federal constitutional guarantees of the free
exercise of religion," and thus Plaintiff cannot "invoke
the subject matter jurisdiction over the merits of the
case." Id.
This theory is meritless. Though the Religion Clauses
protect a religious organization's "autonomy with
14a

respect to internal management decisions that are
essential to the institution's central mission," the
First Amendment does not create "a general
immunity from secular laws." Our Lady ofGuadalupe
Sch. v.
Morrissey-Berru, 140 S. Ct. 2049, 2060 (2020). Here,
the complaint alleges that Plaintiffissued an
insurance policy to Defendant's church, and
Defendant invoked
the policy to secure a defense in an underlying
defamation suit arising from Defendant's social media
posts. Compl. ,r,r 5-9. Plaintiff now seeks a
declaratory
judgment as to its rights and duties under the policy
and recoupment of any defense expenses not required
by the policy. Compl. ,r,r 20-27. Nothing in the First
Amendment prevents this Court from resolving a
dispute turning on the secular
terms of a contract voluntarily entered into by a
religious organization. Sumner v. Simpson Univ., 27
Cal. App. 5th 577, 594 (2018) (religious organizations
can "voluntarily circumscribe!] their own conduct" by
entering into contracts, and such a "contract can be
enforced without breaching the institution's religious
autonomy").
The remainder of Defendant's motion contains an
amalgam of arguments based on various statutes,
legal doctrines, and Biblical references. MID 20-27.
Most of these additional arguments-invoking things
like the Communication Decency Act, the commercial
speech doctrine, and California's anti-SLAPP
statute-appear to have no bearing on this insurance
dispute. And at the very least, all of them lack any
meaningful discussion or are difficult to understand.
In the interests of judicial economy, the Court
declines to parse through each argument.
See Crain v. Commissioner, 737 F.2d 1417, 1417 (5th
Cir.1984) ("We perceive no need to refute these

15a

arguments with somber reasoning and copious
citation of precedent to do so might suggest that these
arguments have some colorable merit.")- In the end, it
is Defendant's burden to explain why dismissal is
proper and, here, Defendant has fallen well short of
doing so. See 5B Wright & Miller,
CV-90 (12/02)
CIVIL MINUTES - GENERAL
Initials of Deputy Clerk VPC
Page 2
Case 5:19-cv-01821-SB-SP
Document
199
Filed 02/23/21
Page 3 of 3 Page ID #:4122
Fed. Prac. & Proc. Civ. § 1357 (3d ed.) ("the burden is
on the moving party to prove that no legally
cognizable claim for relief exists").
Thus, the Court DENIES the motion to dismiss.

CV-90 (12/02)
CIVIL MINUTES - GENERAL
Initials of Deputy Clerk VPC
Page 3

16a

APPENDIX-F.
Excerpts of Points and Authorities
in Support of Dismissal in case 5:19-cv-01821-SB-SP
dated 01/23/21
Table of Contents
Table of Authorities
4
I. INTRODUCTION
8
A.
BMIC's Claims Raised from the Contract
Crafted for The Church 9
1.
Potential for Coverage Imposes to Defend the
Entire Lawsuit
11
2.
The Underlying Action Triggers Duty to Defend
11
B.
Vinkov's Conduct Reveals the Protected
Activity
12
II. LEGAL STANDARD 13
C.
Dispositive Motions Framework under FRCP
12 13
3.
Timeliness 13
4.
Variations 13
5.
Controlling Law 15
D.
Declaratory Relief Treatment 15
6.
Declaratory Judgment Act May not Exceed the
Constitutional Boundaries
16
7.
Ambiguity and Vagueness Doctrine in
Insurance Dispute 17
E.
Evidentiary Support for Dispositive Motions 17
F.
Attachments to the Pleading
18
G.
Frivolous Lawsuit May Result the Sanctions 18
II. ARGUMENTS 19
H.
The District Court Does Not Have Power to
Hear Plaintiffs Claims under Establishment Clause
of both Federal and California Constitutions 19
I.
BMIC's Complaint Cannot and Does Not
Articulate Governmental Interest to Justify the
Court's Intervention
20
J.
The Statutory Religious Exemptions Null
BMIC's Claims
20

17a

K.
Non-Secular Duties of Vinkov's Position
Precludes Insurer to Enforce Exclusionary Clauses
via the Court
21
L.
Volunteer Protection Deprives BMIC of
Imposing Liability on Vinkov and State Claims
22
M.
California Anti-SLAPP Statutes Restrain
BMIC from Stating Claims
22
N.
BMIC as a Commercial Speaker May Not
Prevail over the Matter 23
O.
BMIC's Contract Does Not Exclude Foreign
Members of Congregations from Coverage and State
Essential Definitions
23
P.
BMIC Does Not Have Standing Under Article
III of Federal Constitution
24
Q. Good Samaritan Protection May Operate As
Jurisdictional Bar for BMIC's Claims 25
R.
BMIC Misused the Declaratory Judgment Act
and Waived Arbitration 26
S.
Fed. R. Civ. P. 11 Invites the Court to Impose
the Sanctions against BMIC for Filing Lawsuit with
the Lack of Subject-Matter Jurisdiction
27
III. CONCLUSION
27
Cases
Aerojet-General Corp. v. Transport Indem. Co., 17
Cal. 4th 38, 57-59, 70 Cal. Rptr. 2d 118, 129-130, 948
10
P.2d 909 (1997)
Ashwander v. Tennessee Valley Authority, 297 U.S.
288, 325, 56 S.Ct. 466, 473, 80 L.Ed. 688, 699 (1936)
25
Barnett v. Fireman's Fund Ins. Co., 90 Cal. App. 4th
16
500, 108 Cal. Rptr. 2d 657 (2001)
Barry v. State Bar of California (2017) 2 Cal.5th 318
[212 Cal.Rptr.3d 124, 386 P.3d 788] 13
Bowyer v. U.S. Dep’t of Air Force, 875 F.2d 632, 63536 (7th Cir. 1989) 16
Branch v. Tunnell, 14 F.3d 449, 454 (9th Cir. 1994)
17
18a

Brillhart v. Excess Ins. Co. of America, 316 U.S. 491,
494 (1942) 14
Cal. State Auto. Ass'n Inter-Ins. Bureau v. Superior
Court (1986) 177 Cal.App.3d 855 [223 Cal.Rptr. 246],
16
Chambers v. NASCO, Inc., 501 U.S. 32, 45-46, 111
S.Ct. 2123, 115 L.Ed.2d 27 (1991)
25
Charles Alan Wright, Federal Courts 34 (1963)
12
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah, 508 U.S. 520, (1993) 18
CKE Restaurants, Inc. v. Moore, 159 Cal.App.4th 262,
265 (Cal. Ct. App. 2008) 21
courts have the power to refrain from hearing cases
that would interfere with the duplicative pending
civil action 12
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 340—41
(2006)14
Davilla v. Liberty Life Ins. Co., 114 Cal.App. 308, 313
(Cal. Ct. App. 1931)
11
Deckert v. Independence Shares Corp., 311 U.S. 282,
289, 61 S.Ct. 229, 233, 85 L.Ed. 189 (1940) 25
DeNardo v. Murphy, 781 F.2d 1345, 1348 (9th
Cir.1986)
17
Doe v. Internet Brands, Inc. , 824 F.3d 846, 850 (9th
Cir. 2016) 24
Doe v. United States Youth Soccer Assn., Inc. (2017) 8
Cal.App.5th 1118, 1128 [214 Cal.Rptr.3d 552]
21
E. Bay Asian Local Dev. Corp. v. Cal. (2000) 24
Cal.4th 693 [102 Cal.Rptr.2d 280, 13 P.3d 1122]
19
Fed.R.Civ.P. 11
26
Ferrer v. Chevron Corp. , 484 F.3d 776, 780 (5th Cir.
2007) 16
Flast v. Cohen, 392 U.S. 83, 96 (1968) 12
Foster-Gardner, Inc. v. National Union Fire Ins. Co.
(1998) 18 Cal.4th 857, 868 [77 Cal. Rptr. 2d 107, 959
P.2d 265]
10, 16
Friends of the Earth, Inc. v. Laidlaw Environmental
Services (TOC), Inc., 528 U.S. 167 (U.S.,2000)
23
19a

Galbraith v. County of Santa Clara, 307 F.3d 1119
(9th Cir. 2002)
17
Guaranty Nat’l Ins.Co. v. Gates, 916 F.2d 508, 511 (9
Cir. 1990) 15
Hartford Casualty Insurance Company v. J.R.
Marketing, L.L.C. (2015) 61 Cal.App.4th 988
11
Hassell v. Bird, 420 P.3d 776, 795 (Cal. 2018)
24
Hogan v Midland Nat'l Ins. Co. (1970) 3 C3d 553 9
Holt v. Hobbs, 135 S. Ct. 853, 859 (2015)
19
Home Indem. Co. v. Lane Powell Moss and Miller, 43
F.3d 1322, (9th Cir. 1995)
14
Hosanna-Tabor Evangelical Lutheran Church & Sch.
v. EEOC - 565 U.S. 171, 132 S. Ct. 694 (2012)
18
Housing Group v California Ins. Guar. Ass'n (1996)
47 CA4th 528, 531 22
In Ogle v. Church of God, 153 F. App’x 371, 372-73
(6th Cir. 2005)
20
In Watson v. Jones, 80 U.S. 679 (1871) US 18
Jones v. Community Redevelopment Agency of City of
Los Angeles, 733 F.2d 646 (9th Cir. 1984) 24
Khoja v. Orexigen Therapeutics, Inc., 899 F.3d 988
(9th Cir. 2018)
16
Kokkonen v. Guardian Life Ins. Co. of America, 511
U.S. 375 (U.S.Cal., 1994) 18
Lemon v. Kurtzman - 403 U.S. 602, 91 S. Ct. 2105
(1971)19
Lexmark Int’l, Inc., v. Static Control Components,
Inc., 134 S. Ct. 1377, 1387 (2014)
15
Lujan v. Defenders of Wildlife - 504 U.S. 555, 112 S.
Ct. 2130 (1992)
24
McLaughlin v National Union Fire Ins. Co. (1994) 23
CA4th 1132 9
Meditronic, Inc. v. Mirowski Family Ventures, LLC, U.S. -, 134 S.Ct. 843, 849, 187 L.Ed.2d 703 (2014) 16
Melaleuca, Inc. v Clark (1998) 66 CA4th 1344
21
Minkler v. Safeco Ins. Co. of America (2010) 49
Cal.4th 315 [110 Cal.Rptr.3d 612, 232 P.3d 612]
23
Mitsubishi Int'l. v. Cardinal Textile Sales 25

20a

Natural Resources Defense Council v. McCarthy, 231
F.Supp.3d 491 (N.D.Cal., 2017) 23
Neitze v. Williams, 490 U.S. 319, 325 (1989) 17
North Bank v. Cincinnati Ins. Co., 125 F.3d 983, 986
(6th Cir. 1997)
22
Orange Production Credit Ass'n v. Frontline Ventures
26
Ltd., 792 F.2d 797 (C.A.9 (Alaska), 1986)
Our Lady of Guadalupe School v. Morrissey-Berru,
140 S. Ct. 2049 (2020)
20
Patton v. Jones, 212 S.W.3d 541 (Tex. App. 2006) 19
Paulsen v. CNF, Inc., 559 F.3d 1061, at 1071 (9th Cir.
2009) (citations and quotation marks omitted), cert,
denied, 130 S. Ct. 1053 (2010) 13
Pike v. Archibald (1953) 118 Cal.App.2d 114, 116;
Dillard v. McKnight (1949) 34 Cal.2d 209, 218
16
Reddam v. KPMG LLP, 457 F.3d 1054 (9th Cir. 2006)
25
Regents of University of California v. Superior Court
(2018) 29Cal.App.5th 890, 902-903 [240 Cal.Rptr.3d
675] 21
Safe Air for Everyone v. Meyer, 373 F.3d 1035 (C.A.9
(Idaho), 2004)
14
Sanstorm, Inc. v. Hartford Acc. and Indem. Co., 940
F.2d 1535 (9th Cir. 1991) 17
Schneider v. Chertoff, 450 F.3d 944, 959 (9th Cir.
2006) 12
Skelly Oil Co. v. Phillips Petroleum Co., 339 U.S. 667,
671-72 (1950)
15
SME Racks, Inc. v. Sistemas Mecanicos Para,
Electronica, S.A., 243 Fed. Appx. 502, 503—04 (11th
Cir. 2007) 25
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 194 L. Ed. 2d
635, 2016 23
Staacke v. United States Sec’y of Labor, 841 F.2d 278,
280 (9 Cir. 1988) 24
Steel Co. v. Citizens for a Better Environment, 523
U.S. 83 (U.S., 1998)23

21a

Switch, Ltd. v. Uptime Institute, LLC, 426 F.Supp.3d
636 (D.Nev., 2019) 13
Thornhill Pub. Co., Inc. v. General Tel. & Electronics
Corp., 594 F.2d 730 (C.A.Wash., 1979)12
Townsend v. Holman Consulting Corp., 929 F.2d 1358,
17
1362 (9th Cir. 1990)
United States v. Ballard (1944) 322 U.S. 78 [64 S. Ct.
882, 88 L. Ed. 1148]
20
United States v. Peninsula Communications, Inc., 287
F.3d 832, 836 (9th Cir.2002)
14
United States v. United Foods, Inc., 533 U.S. 405, 409
(2001)22
Va. Bd. of Pharmacy v. Va. Citizens Consumer
Council, Inc., 425 U.S. 748, 772 n.24 (1976) 22
Vega v. JPMorgan Chase Bank, N.A., 654 F. Supp. 2d
1104, 1109 (E.D. Cal. 2009)
13
Waller v. Truck Ins. Exch. Inc., 11 Cal. 4th 1, 18
(1995)14
Warren v.Guelker, 29 F.3d 1386, 1390 (9th Cir. 1994)
17
White v. Lee, 227 F.3d 1214 (C.A.9 (Cal.),2000)
13
Willy v. Coastal Corp., 503 U.S. 131 (U.S.Tex.,1992)
26

Constitutional Provisions
CA Const., art. I, § 4
11, 18
US Const., amend. I
passim
US Const., art. Ill 15, 23
Statutes
28 USC § 1332
16
28 USC § 2072
24
28 USC § 2201(a) 9, 12
42 USC § 14503(a)(1)
12, 22
42 USC. § 2000bb-l
12, 20
47 USC §230(c)(2) 12, 25
9 USC §§1-14
26
California Code of Civil Procedure § 425.16 12, 14,
22

California Code of Civil Procedure §§ 1060-1062.5 15
22a

California Code, Code of Civil Procedure - CCP §
1281.5
26
California Corporations Code §9241 12, 20, 22
California Government Code § 12926.2
12, 21
Evid. Code § 452(d)
17

Rules of Court
Fed. R. Civ. P. 11 17, 18, 25, 26, 27
Fed. R. Civ. P. 26 (a)(l)(iv))(l» 17
Fed.R.Civ.P. 12(b)(1)
12
Fed.R.Civ.P. 12(b)(1) & 12(b)(6) 7, 25, 26
Fed.R.Civ.P. 12(b)(6)
13, 25
L.R. 6-1
12
Miscellaneous
Colossians 3:23
20
James 2:17, KJV 24
John 4:7 21 20
Leviticus 19:11
20
The pending cert No. 20-602, Clifford v. Trump

23a

13

